            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
           STATE OF MAINE
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2002

      March 2004   A-77-04-00010




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM
Date:   March 24, 2004                                                      Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the State of Maine for the Fiscal Year
        Ended June 30, 2002 (A-77-04-00010)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Maine for the Fiscal Year ended June 30, 2002. Our objective was
        to report internal control weaknesses, noncompliance issues, and unallowable costs
        identified in the single audit to SSA for resolution action.

        The Maine State Auditor performed the audit. The Department of Health and Human
        Services (HHS) concluded that the audit met Federal requirements. In reporting the
        results of the single audit, we relied entirely on the internal control and compliance work
        performed by the Maine State Auditor and the reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Maine Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Department of Human Services
        (DHS) is the Maine DDS’ parent agency.

        The single audit reported that cash draws for the disability program were not made in
        accordance with the Cash Management Improvement Act (CMIA) agreement.
        Specifically, funds were drawn 3 to 30 days after checks were issued, resulting in a
        negative average daily cash balance. The corrective action plan indicates that DHS will
        review the CMIA agreement and determine issues that lead to untimely cash draws
        (Attachment A, pages 1 through 4).
Page 2 – Candace Skurnik


We recommend that SSA ensure DHS has implemented procedures for DDS draws of
Federal funds in accordance with the CMIA agreement.

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   DHS did not have the necessary procedures or systems in place to properly account
    for Federal funds (Attachment B, pages 1 through 5).

•   Controls were not adequate to ensure that Federal financial reports were accurately
    prepared (Attachment B, pages 6 and 7).

•   Quarterly financial reports were inaccurate and were not reconciled to the State’s
    accounting system (Attachment B, pages 8 through 10).

•   Controls were not in place to ensure that only program-related payroll costs were
    charged to each program (Attachment B, pages 11 through 13).

•   Incorrect amounts were recorded and documentation was not maintained for training
    costs (Attachment B, pages 13 and 14).

•   Costs recorded on the Financial Status Reports were inaccurate (Attachment B,
    pages 15 and 16).

•   DOH temporarily charged the Federal Program for the State’s share of program
    expenses (Attachment B, pages 17 and 18).

•   DOH did not have a system in place to ensure that financial reports were accurately
    prepared and filed timely (Attachment B, pages 19 and 20).

•   DOH did not have adequate controls in place to ensure accurate financial reporting
    with prescribed methods to allocate costs (Attachment B, pages 21 and 22).

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                          S
                                          Steven L. Schaeffer
Attachments
Attachment A
  Page 1 of 4
Attachment A
  Page 2 of 4
Attachment A
  Page 3 of 4
Attachment A
  Page 4 of 4
Attachment B
 Page 1 of 22
Attachment B
 Page 2 of 22
Attachment B
 Page 3 of 22
Attachment B
 Page 4 of 22
Attachment B
 Page 5 of 22
Attachment B
 Page 6 of 22
Attachment B
 Page 7 of 22
Attachment B
 Page 8 of 22
Attachment B
 Page 9 of 22
Attachment B
Page 10 of 22
Attachment B
Page 11 of 22
Attachment B
Page 12 of 22
Attachment B
Page 13 of 22
Attachment B
Page 14 of 22
Attachment B
Page 15 of 22
Attachment B
Page 16 of 22
Attachment B
Page 17 of 22
Attachment B
Page 18 of 22
Attachment B
Page 19 of 22
Attachment B
Page 20 of 22
Attachment B
Page 21 of 22
Attachment B
Page 22 of 22
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
